                    OFFICE OF INSPECTOR GENERAL
           CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                             Audit of Corporation for National
                                  and Community Service
                                     Grants Awarded to
                        Alaska State Community Service Commission
                                      Juneau, Alaska

                               OIG Audit Report Number 02-16



                                    Financial Schedules
                                            and
                              Independent Auditor's Reports
                                       For the Period
                            October 1,1997 to December 31,2001


                                         Prepared by
                             Leonard G. Birnbaum and Company
                                Certified Public Accountants
                                    6285 Franconia Road
                                 Alexandria, Virginia 22310


                       Under DOS Contract No. S-OPRAQ-99-D-0020
                                Delivery Order CNS-11


This report,was issued to Corporation management on September 26, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than March 26,2003, and complete its corrective
actions by September 26,2003. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                                                                              CORPORATION
                                 Office of Inspector General                                  FOR NATIONAL
                       Corporation for National and Community Service
                                     Audit Report 02-16
                                                                                               SERVICE
     Audit of Corporation for National and Community Service Grants Awarded to the
                      Alaska State Community Service Commission

Introduction

The Corporation for National and Community Service, pursuant to the authority of the National
and Community Service Act, awards grants and cooperative agreements to state commissions,
nonprofit entities, tribes and territories to assist in the creation of full and part time national and
community service programs. Currently, under the Act's requirements, the Corporation awards
approximately two thirds of its ArneriCorps Staternational funds to State commissions. The State
commissions in turn fund and are responsible for the oversight of subgrantees who execute the
programs. Through these subgrantees, AmeriCorps members perform service to meet educational,
human, environmental, and public safety needs.

OIG retained L. G. Birnbaum and Company to audit Corporation grants to the Alaska State
Community Service Commission for AmeriCorps, Education Awards, Program Development and
Training, Make a Difference Day and Administrative costs from October 1, 1997 through
December 31, 2001. During this period, the Commission received approximately $4.2 million in
funding authority from the Corporation and had approximately $3.9 million in claimed costs. The
audit's objectives were to determine whether (1) the Commission's financial reports presented
fairly the financial results of the award; (2) the internal controls adequately safeguarded Federal
funds; (3) the Commission and its subgrantees had adequate procedures and controls to ensure
compliance with Federal laws, applicable regulations, and award conditions; and (4) costs were
documented and allowable under the awards' terms and conditions.

The auditors identified questioned costs of $127,8 18, an amount which represents approximately
three percent of the total of the $3,863,943 claimed by the Commission. The audit identified two
material weaknesses relating to (1) the reconciliation of amounts drawn down from HHS with the
Commission's financial records and (2) the Commission's practice of reporting reimbursements
and advances to AmeriCorps subrecipients as costs rather than reporting only costs actually
claimed by those subrecipients. The Commission has instituted new procedures to address both of
these deficiencies. The auditors concluded that the Schedules of Award Costs present fairly the
costs claimed by the Commission, except for the questioned and unsupported costs identified in
the report.

OIG has reviewed the report and the work papers supporting the auditor's conclusions.

OIG provided the Commission and Corporation a draft of this report for their review and
comment. Their responses are included as Appendices A and B, respectively. The Commission
responses refer to additional attached exhibits. OIG and contract audit personnel considered the
Commission exhibits in preparing this final report and copies of those documents are included in
the audit workpapers.

                                                                                          Inspector General
                                                                                          1201 New York Avenue, NW
                                                                                          Washington, DC 20525
                      Audit of Corporation for National and Community Service
                                        Grants Awarded To
                            Alaska State Community Service Commission
                                          Juneau, Alaska

                                                        Table of Contents



REPORT SUMMARY AND HIGHLIGHTS:

        Results in Brief ..............................................................................................

        Summary of Audit Results .............................................................................

        Compliance ....................................................................................................

        Internal Control ..............................................................................................

        Purpose and Scope of Audit ...........................................................................

        Background ....................................................................................................


INDEPENDENT AUDITOR'S REPORT ..................................................................

FINANCIAL SCHEDULES:
        Exhibit A - Schedule of Award Costs:
                    AmeriCorps ................................................................................

                   Schedule A-1 - Schedule of Award Costs:
                                  Southeast Alaska Guidance Association ..................

                   Schedule A-2 - Schedule of Award Costs:
                                  Rural Alaska Community Action Program, Inc .......

                    Schedule A-3 - Schedule of Award Costs:
                                   Nine Star Enterprises ................................................

        Exhibit B - Schedule of Award Costs:
                    AmeriCorps Education Awards..................................................

        Exhibit C - Schedule of Award Costs:
                    Professional Development and Training (PDAT) ......................

        Exhibit D - Schedule of Award Costs:
                    Administration............................................................................
        Exhibit E - Schedule of Award Costs
                    Make a Difference Day Grant.....................................................              15


COMPLIANCE AND INTERNAL CONTROLS:

        Independent Auditor's Report on Compliance and Internal Controls
           Over Financial Reporting ..........................................................................    17

                  Compliance Findings: ........................................................................   18

                  Internal Control Findings: ..................................................................   31

                  Follow-Up on Pre-Audit Survey Findings.. ..............................                         34



RESPONSES TO REPORT

Alaska State Community Service Commission ......................................................... ..Appendix A

Corporation for National and Community Service .......................................................Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                        LEONARD G. BIRNBAUM A N D COMPANY, LLP
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE
                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA. VA 223104S10




LESLIE A. LEIPER                                                                                     WASHINGTON, D.C.
LEONARD G. BIRNBAUM                                                                               SUMMIT, NEW JCRSIV
DAVID SAKOFS                                                                                  REDWOODCllY, CALlleORNlA
CAROL A. SCHNEIOER
DORA U. CLARKE




     Inspector General
     Corporation for National and Community Service

     This report is issued under an engagement to audit the costs claimed by the Alaska State Community
     Service Commission (Commission) and its subrecipients from October 1, 1997 through December
     3 1,2001 under the grants awarded by the Corporation for National and Community Service. This
     report focuses on the audit of claimed costs, instances of noncompliance with Federal laws,
     applicable regulations or award conditions, and internal control weaknesses disclosed during the
     audit at the Comn~issionand its subrecipients.

                                                Results in Brief

     As a result of our audit of these awards, we are questioning costs totaling $127,8 18, an amount
     which represents approximately three percent of the total of$3,863,943 claimed by the Commission.
     Of the $127,818 of questioned costs, $82,477 was questioned because the Commission andlor its
     subrecipient(s) were unable to provide documentation to support the claimed costs. Other costs
     questioned included living allowances questioned because key eligibility documentation could not be
     located, and an unresolved transfer of PDAT funds to an ArneriCorps subrecipient. Details related to
     questioned costs appear in the Independent Auditor's Report.

     Our audit also disclosed that, because the Commission is a unit of the Alaska state government and
     must use the state's accounting system, the Commission lacks the ability to track expenditures by
     budget line item without extensive analysis. Details related to this and other noncompliance findings
     appear in the Independent Auditor's Report on Compliance and on Internal Controls Over Financial
     Reporting.




                                                         1



                           MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBUC ACCOUNTANTS
                                    Grant Programs Audited

Our audit of the Commission covered financial transaction, compliance and internal controls testing
of the following program awards funded by the Corporation for National and Community Service
(Corporation):

  Prom               Award Number            Award Period                   Audit Period
AmeriCorps           94ASCAK002             08/01/94 to 12131/00           10/01/97 to 12/31/00
AmeriCorps           00ASCAK002             09/01/00 to 09/30/03           09/01/00 to 12131/01
Education Awards     98EDSAK201             06/01/98 to 0813 1/00          0610 1/98 to 0813 1100
PDAT                 95PDSAK001             11/01/95 to 12/31/01           01/01/98 to 12/31/01
Administration       94SCSAK001             01/31/94 to 12/31/00           01/01/98 to 12/31/00
Make a Difference    99MDDAK00 1            0810 1/99 to 1010 1199         08/01/99 to 10/01/99

Our audit of the costs claimed by the Commission under these awards disclosed the following:

                                                                           Percentage of
                                                   Amount                  BudgetJClaimed
Award Budget                                      $4,213,339                        -
Claimed Costs                                      3,863,943                      91.7%
Questioned Costs                                      127,818                      3.3%

                               SUMMARY OF AUDIT RESULTS

As a result of our audit of the aforementioned awards, we are questioning costs totaling $127,818
as summarized below and detailed in Exhibits A through E to the Independent Auditor's report.
Questioned costs are costs for which there is documentation that the recorded costs were expended
in violation of the law, regulations or specific conditions of the award, or those costs which require
additional support by the grantee or require interpretation of allowability by the Corporation.

The audit identified two material weaknesses relating to (1) the reconciliation of amounts drawn
down from HHS with the Commission's financial records and (2) the Commission's practice of
reporting reimbursements and advances to ArneriCorps subrecipients as costs rather than reporting
only costs actually claimed by those subrecipients. The Commission has instituted new procedures
to address both of these deficiencies. In our opinion, except for missing supporting documentation
and the $127,818 in questioned costs, the Commission's Schedules of Award Costs accurately
reflects the costs claimed for the period from October 1, 1997 to December 3 1,2001.
The following summarizes the costs questioned on these awards by reason:

AmeriCorps Grant
     Stipends to Members lacking eligibility documentation

       Total Questioned - AmeriCorps

PDAT
       Unsupported costs
       Unresolved transfer to Rural CAP
       Total Questioned - PDAT

Administration
     Unsupported costs

       Total Questioned - Administration

Total Questioned - All Grants

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project such
costs to total expenditures incurred, based on the relationship of costs tested to total costs. For a
complete discussion of these questioned costs, refer to the Independent Auditor's Report.

                                         COMPLIANCE

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

           The Commission did not track expenditures by budget line item as required by CNCS
           provisions.
           The Commission did not submit Financial Status Reports (FSRs) on a timely basis.
           AmeriCorps subrecipients did not submit FSRs on a timely basis.
           Records supporting documentation for nonpayroll costs incurred prior to January 1,2000
           were not available.
           Cumulative PDAT costs reported on FSRs exceeded the amount recorded in the general
           ledger.
           Cumulative AmeriCorps costs reported on the Commission's FSRs exceeded the
           amounts reported and claimed by subrecipients.
           Travel costs claimed by a subrecipient were incurred after the subgrant had closed.
           Supporting documentation was not available for travel costs claimed by a subrecipient.
           Subrecipients did not maintain all the required Arnericorps eligibility documentation.
Our audit disclosed the following weaknesses in the Commission's internal controls:

              Amounts drawn down, as reported by HHS, are not reconciled to amounts in the
              Commission's records.
              Advances to subrecipients were recorded and claimed as expenses.

                              PURPOSE AND SCOPE OF AUDIT
 Our audit covered the costs claimed under Corporation Grant Nos. 94ASCAK002,00ASCAK002,
 98EDSAK201,95PDSAK001,94SCSAK001,             and 99MDDAK001.

 The principal objectives of our audit were to determine whether:

         1.      Financial reports prepared by the Commission presented fairly the financial results
                 of the award;

         2.      The internal controls were adequate to safeguard Federal funds;

         3.      The Commission and its subrecipients had adequate procedures and controls to
                 ensure compliance with Federal laws, applicable regulations, award conditions and
                 that Member services were appropriate to the programs;

         4.      The award costs reported to the Corporation were documented and allowable in
                 accordance with the award terms and conditions; and

         5.      The Commission had established adequate oversight and informed subrecipients of
                 the Corporation's GPRA goals.

  We performed the audit in accordance with auditing standards generally accepted in the United
  States of America and Government Auditing Standards issued by the Comptroller General of the
  United States. Those standards require that we plan and perform the audit to obtain reasonable
  assurance about whether the amounts claimed against the awards, as presented in the Schedules of
  Award Costs (Exhibits A through E), are free of material misstatement. An audit includes
  examining, on a test basis, evidence supporting the amounts and disclosures in Exhibits A through
  E. An audit also includes assessing the accounting principles used and significant estimates made
  by the auditee, as well as evaluating the overall financial schedule presentation. Our audit included
  reviews of audit reports and working papers prepared by the independent public accountants for the
  Commission and its subrecipients in accordance with the requirements of OMB Circular A-133. Our
  audit also included follow up on the Pre-Award Survey Report concerning the Commission dated
  March 24,2000 (CNS OIG Report 00-24). We believe our audit provides a reasonable basis for our
  opinion.
The contents of this draft report were disclosed to and discussed with the Commission at an exit
conference on July 22,2002. In addition, we provided a draft of this report to the Commission and
to the Corporation for comment on July 22,2002 and received responses from both the Commission
and the Corporation on August 22,2002.

                                         BACKGROUND
The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, as amended, awards grants and cooperative agreements to state
commissions, and other entities to assist in the creation of full and part time national and community
service programs.

The Commission has received approximately $8.7 million in funding and $8 million in drawdowns
from the Corporation since 1994, including ArneriCorps formula funds, Amencorps competitive
funds, State Disability Funds, PDAT funds, Administration h d s , and Make a Difference Day funds.
 Of this amount, approximately $7.2 million was distributed to subgrantees. All of the
Commission's subgrantees are nonprofit organizations.

Through December 3 1, 2001, the Commission had received hnding from the Corporation, and
drawn down funds as follows:

                                                              Authorized          Drawndown
       94ASCAK002 -        AmeriCorps (Comp. & Form.)         $ 6,463,322         $6,463,320
       00ASCAK002 -        ArneriCorps (Comp. & Fonn.)          1,137,834            630,895
       97DSCAK002 -        State Disability Funds Grant Award      15,111              -0- *
       98EDSAK201 -        AmeriCorps Education Awards             38,670             13,967
       95PDSAK001 -        PDAT Funds                             377,462            312,410
       94SCSAK001 -        Administrative Funds                   645,685            576,025
       99MDDAK001 -        Make a Difference Day Funds              2,000              2.000

        TOTAL                                                    $   8.680.084

* No costs were claimed against this grant during the period covered by the audit.
                                       REPORT RELEASE

This report is intended for the information and use of the Corporation's Office of Inspector General,
management of the Corporation for National and Community Service, the Alaska State Community
Service Commission and its subrecipients, and the US. Congress. However, this report is a matter
of public record and its distribution is not limited.
                         LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE
                                                    6285 FRANCONIA ROAD
                                                  ALEXANDRIA. VA 22310-2510
                                                            -
                                                        (703) 922-7622
                                                      FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                            WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                      SUMMIT. NEW JERSEY
DAVlD SAKOFS                                                                                         REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




        Inspector General
        Corporation for National and Community Service

                                      INDEPENDENT AUDITOR'S REPORT

        We have audited the costs incurred by the Alaska Community Service Commission (Commission)
        for the award numbers listed below. These costs, as presented in the schedules of award costs
        (Exhibits A through E), are the responsibility of the Commission's management. Our responsibility
        is to express an opinion on Exhibits A through E based on our audit.

          Promam                Award Number                    Award Period                    Audit Period
        Amencorps               94ASCAK002                    08/01/94 to 12131/00           10/01/97 to 12131/00
        Amencorps               00ASCAK002                    0910 1/00 to 09/30/03          0910 1100 to 12131101
        Education Awards        98EDSAK201                    06/01/98 to 08131/00           0610 1/98 to 08131/00
        PDAT                    95PDSAK00 1                   11/01/95 to 12/31/01           01/01/98 to 12/31/01
        Administration          94SCSAKOOl                    01/31/94 to 12/31/00           01/01/98 to 12/31/00
        Make a Difference       99MDDAKOO 1                   08/01/99 to 10/01/99           08/01/99 to 10/01/99

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards, issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are fiee of material misstatement. An audit includes
        examining, on a test basis, evidence supporting the amounts and disclosures in the financial
        schedules. An audit also includes assessing the accounting principles used and significant estimates
        made by management, as well as evaluating the overall financial schedule presentation. We believe
        our audit provides a reasonable basis for our opinion.

        In our opinion, except for the omission of the supporting source documentation discussed above and
        $127,8 18 in questioned costs, the Schedules of Award Costs (Exhibits A through E and related
        Schedules) referred to above present fairly, in all material respects, the costs claimed for the period
        October 1,1997 to December 3 1,2001, in conformity with generally accepted accounting standards
        in the United States of America.




                              MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
In accordance with Government Auditing Standards, we have also issued our report, dated June 28,
2002, on Compliance and on Internal Controls over financial reporting.

This report is intended for the information and use of the Corporation's Office of Inspector General,
as well as management of the Corporation for National and Community Service and the Alaska State
Community Service Commission and its subrecipients and the U.S. Congress. However, this report
is a matter of public record and its distribution is not limited.


                                              Leonard G. Birnbaum and Company,       ~b\

Alexandria, Virginia
June 28,2002
                                                                                       Exhibit A
                         Alaska State Community Service Commission
                                   Schedule of Award Costs
                        Corporation for National and Community Service
                                 Award Number 94ASCAK002
                                 Award Number 00ACSAK002
                             October 1,1997 to December 31,2001
                                            (Note 1)

                                          AmeriCorps


                                           Claimed            Questioned
                                            Costs               Costs

Southeast Alaska Guidance Assoc.         $ 1,465,423          $      10,341         Schedule A- 1

Rural Community Action Program              1,384,324                      0        Schedule A-2

Nine Star Enterprises                         511.914                      0        Schedule A-3

Total                                    L=&xud.              $      10.341

Approved Budget                          $ 3,586,732



-
Note

1. As discussed in the Independent Auditor's Report on Compliance and on Internal Controls Over
   Financial Reporting, the Commission did not track expenditures by budget line item.
   Accordingly, neither this Exhibit nor the accompanying Schedules present claimed costs by
   budget line item. Further, our audit did not result in any questioned match costs. Accordingly,
   for purposes of simplicity in presentation, the amounts shown on this and other Exhibits and
   accompanying Schedules relate to federal funds only.
                                                                                  Schedule A-1

                         Alaska Community Service Commission
                                Schedule of Award Costs
                     Corporation for National and Community Service
                              Award Number 94ASCAK002
                             Award Number 00ASCAK002
                          October 1,1997 to December 31,2001

                          Southeast Alaska Guidance Association


Approved Budget (Federal Funds)                                     $ 1.466.173       Note 1

Claimed Costs                                                           1.465.421     Note 1

Questioned Costs
       Stipends                                                             10.341    Note 2

Total Questioned Costs                                              $       10.34 1




Notes

1 . The approved budget and claimed costs are comprised of the following:

    Award Number                                        Budget          Claimed Costs
    94ASCAK002                                        1,012,501              1,012,501
    00ASCAK002                                         453,672                 452,922
    Totals                                            1,466,173              1,465,423

2. Our review of SAGA'S member records disclosed that high school diplomas were missing for
   several members enrolled under award number 94ASCAK002. We have, accordingly,
   questioned the stipends paid to these members.
                                                                        Schedule A-2

                     Alaska State Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 94ASCAK002
                          October 1,1997 to March 31,2001

                           Rural Community Action Program


Approved Budget (Federal Funds)                               $ 1.518.125

Claimed Costs                                                   1,384.324

Questioned Costs                                              U
                                                                     Schedule A-3

                     Alaska State Community Service Commission
                               Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 94ASCAK002
                        October 1,1997 to September 30,2000

                                  Nine Star Enterprises


Approved Budget (Federal Funds)                               m
Claimed Costs                                                 511.914
Questioned Costs                                              0
                                                                      Exhibit B

                    Alaska State Community Service Commission
                              Schedule of Award Costs
                   Corporation for National and Community Service
                            Award Number 98EDSAK.201
                           June 1,1998 to August 31,2000

                            AmeriCorps Education Awards


Approved Budget (Federal Funds)

Claimed Costs                                                24.377
Questioned Costs                                             2
                                                                                       Exhibit C
                      Alaska State Community Service Commission
                                Schedule of Award Costs
                     Corporation for National and Community Service
                              Award Number 95PDSAK001
                          January 1,1998 to December 31,2001

                                            PDAT


Approved Budget (Federal Funds)

Claimed Costs

Questioned Costs
       Unsupported                                                         43,050   Note 1
       Transfer to Rural CAP ArneriCorps                                   35.000   Note 2

Total Questioned Costs

-
Notes

1. The questioned amount represents nonpayroll costs incurred prior to January 1,2000, for which
   supporting documentation could not be located.

2. PDAT funds in the amount of $35,000 were transferred to Rural CAP and reported by Rural
   CAP as ArneriCorps expenditures. We were unable to determine how these costs were reported
   by the Commission. Pending resolution of how these costs were reported by the Commission, we
   have questioned them.
                                                                                Exhibit D

                      Alaska State Community Service Commission
                                Schedule of Award Costs
                            Corporation for National Service
                             Award Number 94 SCSAKOOl
                            October 1,1997 to June 30,2001

                                  ADMINISTRATION


Approved Budget (Federal Funds)                                  $   209.491

Claimed Costs                                                        157,800

Questioned Costs (Unsupported)                                   $    39.422   Note 1

-
Notes

1. The questioned amount represents non-payroll costs claimed which were incurred prior to
   January 1,2000, for which supporting documentation is unavailable.
                                                                       Exhibit E

                      Alaska State Community Service Commission
                                Schedule of Award Costs
                            Corporation for National Service
                             Award Number 99MDDAK001
                           August 1,1999 to October 1,1999

                                  Make a Difference Day


Approved Budget (Federal Funds)                              3L=&L!@
Claimed Costs                                                2
Questioned Costs                                             0
                        Alaska State Community Service Commission
                             Notes to Schedule of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Exhibits and Schedules include amounts claimed and questioned under
AmeriCorps, Administrative, and Program Development and Training grants awarded by the
Corporation for National and Community Service for the period from October 1,1997 to December
31,2001.

The Commission awards its AmeriCorps grant funds to numerous subgrantees that administer the
ArneriCorps program and report financial and programmatic results to the Commission.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the Provisions of the grant
agreements between the Corporation and the Commission. The information presented in the
Schedule has been prepared from the reports submitted by the Commission to the Corporation. The
basis of accounting used in preparation of these reports differs slightly from accounting principles
generally accepted in the United States of America as follows:



Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciation over its useful life. As a result, the expenses reflected in
the Schedule of Award Costs include the cost of equipment purchased during the period rather
than a provision for depreciation. The equipment acquired is owned by Alaska State Community
Service Commission while used in the program for which it was purchased or in other future
authorized programs. However, the Corporation has reversionary interest in the equipment. Its
disposition, as well as the ownership of any proceeds therefore, is subject to Federal regulations.

Inventorv

Minor materials and supplies are charged to expense during the period of purchase.
                         LEONARD G . BIRNBAUM                          AND     COMPANY, LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                      WASHINGTON OFFICE
                                                     6285 FRANCONIA ROAD
                                                   ALEXANDRIA. VA 22310-2510


                                                          (703) 922-7622
                                                       FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                                WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                          SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                             REDWOOD CITY. CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE



       Inspector General
       Corporation for National and Community Service

            INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                        CONTROLS OVER FINANCIAL REPORTING

        We have audited the Schedules of Award Costs, as presented in Exhibits A through E, which
        summarize the claimed costs of the Alaska State Community Service Commission under the
        Corporation awards listed below, and have issued our report thereon dated June 28,2002.

          Prowam                Award Number                     Award Period                     Audit Period
        AmeriCorps              94ASCAK002                    08/01/94tol2/31/00               10/01/97to12/31/00
        AmeriCorps              00ASCAK002                    09/01/00 to 09/30/03             0910 1/00 to 12131/01
        Education Awards        98EDSAK201                    06/01/98 to 0813 1/00            06/01/98 to 0813 1/00
        PDAT                    95PDSAK00 1                   11/01/95to12/31/01               01/01/98to12/31/01
        Administration          94SCSAKOO1                    0 1131/94 to 12131/00            0110 1/98 to 12131/00
        Make a Difference       99MDDAKOO1                    08/01/99 to 10/01/99             0810 1199 to 10101/99

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards, issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement.

        COMPLIANCE

        Compliance with laws, regulations, and the Grant Provisions of the awards is the responsibility of
        Alaska State Community Service Commission's management. As part of obtaining reasonable
        assurance about whether the financial schedules are free of material misstatement, we performed
        tests of compliance with certain provisions of laws, regulations, and the terms and conditions of the
        awards. However, our objective was not to provide an opinion on overall compliance with such
        provisions.

        Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
        contained in statutes, regulations, and the Grant Provisions of the award.




                             MEMBERS OF THE AMERICAN I N s T I T U ~ ~ OCERTIFIED
                                                                         F        PUBLIC ACCOUNTANTS
                                   COMPLIANCE FINDINGS

The results of our tests of compliance disclosed the following instances of noncompliance:

Finding No. 1

Condition

The Commission did not track expenditures for the Administration and PDAT grants by budget line
item as stipulated in Grant Provisions. Consequently, we were unable to compare the Commission's
claimed amounts to specific Program Budget line items. AmeriCorps' General Provisions include
"Financial Management Provisions" that state " ... This (Financial Management) system must be
able to identify costs by programmatic year and by budget line item."

The Alaska Standard Accounting System does not summarize financial information by line item. The
effect of this condition is that, for most grants, the Commission is unable to perform acomparison of
actual expenditures to budget line items. It is difficult to control costs if management is unaware of
how expenditures compare with the budget.

AmeriCorps subgrantee request for reimbursement forms, and more recently, the Web Based
Reporting System (WBRS), include budget line items and expenditures of Federal finds and Grantee
matching. In spite of this information being available for subgrants, the Commission's financial
management system is not configured to provide a comparison of actual expenditures to budget line
items. On grants without subgrantees, such as Administration, no budget line item comparisons with
expenditures are available.

Recommendation

We recommend that the Commission establish policies, procedures and accounting practices within
its current recordation systems to utilize the respective grants' appropriation codes and budget line
items for tracking the funded and expended amounts by grant, program year and budget line item.

Commission's Response

The Commission agrees with the need for control over the budgets for the Administration and PDAT
grants. The Commission believes that the expanded use of the WBRS system should aid in
budgetary comparisons.

Auditor's Comment

We agree that effective implementation of WBRS for the Administration and PDAT grants should
remedy this deficiency. We cannot verify that corrective action has occurred until reporting ofcosts
incurred under the Administrative and PDAT grants demonstrates comparison of actual expenditures
to the five principal categories identified in budgets.
Finding No. 2

Condition

The Commission did not submit Financial Status Reports (FSRs) of AmeriCorps, Administrative and
PDAT grants on a timely basis as stipulated in the respective Grant Provisions.

 Grant                           Submitted Late     I
                                                    I
                                                         On Time        1
                                                                        1
                                                                            Percent Late
 94ASCAK002 -


 Administrative
 95PDSAK001- PDAT

We believe the basic cause of the above condition was that proper emphasis was not placed in the
financial management process on timely gathering of the information necessary to prepare FSRs.

The Corporation has established due dates for FSRs for each program for each year. We matched
due dates with actual FSR submission dates to arrive at the results shown above.

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Both the Grantor and Grantee require current financial information for timely and
effective management decision-making.

Recommendation

We recommend that the Commission establish policies and procedures to ensure that FSRs are
properly completed and submitted on a timely basis.

Commission's Response

The Commission agrees with this finding and represents that it has strengthened its procedures to
assure that FSRs are completed accurately and reporting deadlines are met.

Auditor's Comment

The Commission did not provide a copy of the revised provisions. An awareness of the deficiency
and improved procedures could assist with timely FSR submission.
Finding No. 3

Condition

The following AmeriCorps subrecipients did not submit Financial Status Reports on a timely basis:

    Subrecipient                 Submitted Late           On Time          Percent Late
    Nine Star                          3                     12                20%
    SAGA                               2                     16                11%
I   Rural CAP:
       EPAJRaven                         4                    15               2 1%
       Child Development                 3                    13               19%

The basic cause of the above condition appears to be that the Commission's indoctrination and
oversight processes to its subrecipients did not adequately emphasize the importance of preparing
and submitting correct and timely Financial Status Reports.

OMB Circulars A-102 and A-1 10 as well as ArneriCorps Provision No. 17 - "Reporting
Requirements" provide for the submission of quarterly FSRs. The Commission also established
annual subrecipient FSR due dates in order to provide the time necessary to aggregate Commission
FSRs and meet the Corporation's FSR due date schedule. Subrecipient due dates were compared
with submission dates to arrive at the above schedule.

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. The Grantee and subrecipients require current financial information for timely and
effective management decision-making.

Recommendation

We recommend that the Commission establish policies,and procedures to ensure that FSRs are
properly completed, supported by adequate documentation, and submitted on a timely basis.

Commission's Resvonse

The Commission agrees with this finding and represents (1) that timely reporting will be stressed as
new Grantees enter the state program and (2) that the Commission's standards are more stringent and
should easily meet the CNCS requirements for timely reporting.

Auditor's Comment

Training to emphasize the importance of timely FSR submission should improve subrecipient
timeliness.
Finding No. 4

Condition

The Alaska Department of Education and Early Development (EED) is responsible for the
maintenance of accounting records and supporting documentation for the Alaska State Community
Service Commission. EED was unable to provide supporting documentation for the Administration
and PDAT grants' non-payroll transactions prior to January 1,2000.

Because these costs claimed could not be subjected to audit tests, we have questioned the following
amounts:

I Grant                                      FY 1998 1          FY 1999 1          Totals ]
I 94SCSAK00 1 - Administration       I         13.829   1        25.598 1          39.427 1
I 95PDSAK001- PDAT                             21,855   1        21,195 1          43,050  1
I Totals                                       35,684   1        46,793 1          82,477 1

The Alaska Department of Community and Regional Affairs (DCRA) was originally responsible for
AmeriCorps and other related CNCS grants. The program moved to the Alaska Department of Labor
when the DCRA was eliminated and several months later to the EED. As a result of these program
transfers, per EED personnel, various items of supporting documentation are no longer accessible for
audit review.

Responsibilities Under Grant Administration 3.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee has full fiscal and programmatic responsibility for managing all aspects of grant and grant-
supported activities, subject to the oversight of the Corporation. The Grantee is accountable to the
Corporation for its operation of the ArneriCorps program and the use of Corporation grant funds. It
must expend grant funds in a judicious and reasonable manner."

Financial Management Provision 4.b. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain adequate supporting documents for its expenditures and in-kind contributions
under this grant. Costs must be shown in books or records and must be supported by a source
document, such as a receipt, travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. The Grantee and subrecipients require accurate and properly supported financial
information for timely and effective management decision-making.

Recommendation

Because the lack of supporting documentation involved prior periods in which CNCS programs were
under the supervision of other state agencies, no recommendation is deemed appropriate.
The Commission essentially agrees with this finding but suggests (1) that financial reports fiom the
state accounting system provide a specific record of how and when Commission funds were
expended and (2) that there is no reason to suggest that there was any impropriety in these
expenditures.

Auditor's Comment

No supporting documentation was provided for these costs during the audit or in the response.
Accordingly, the finding and the related questioned costs, remain unchanged.

Finding No. 5

Condition

Cumulative PDAT costs reported on the FSRs exceeded the amounts recorded in the general ledger
by $8,461 as December 3 1,2001.

I source:                                                                            Amount
 Financial Status Reports                                                            354,599
 General Ledger                                                                      346,138
 Dlflerence                                                                            8,461

EED personnel did not provide a reconciliation of the difference in costs per the FSRs and the
general ledger but suggested that such differences are possibly the result of timing and would be
eliminated by the end of the grant.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

Financial Management Provision 4.b. under Section C. requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation
We recommend that the Commission prepare worksheets and reconciliations to support any
differences between the FSRs and the underlying accounting records.
Commission's Res~onse

The Commission agrees with the finding and recommendation to develop internal control procedures
to eliminate reporting errors. The Commission provided a revised reconciliation, together with a
screen print of a PMS report through April 3,2002 and its FSR as of March 3 1,2002 which reduces
the difference to $89.

Auditor's Comment

We consider the $89 to be an acceptable timing difference. We have revised our questioned costs
to exclude the originally reported difference of $8,461.

Finding. No. 6

Condition

Cumulative AmeriCorps costs reported on the Commission's FSRs exceeded by $31,287 the
amounts reported and claimed by the subrecipients as of March 3 1,2001.

 Source:                                                                                   Amount
 Commission Financial Status Reports from inception through 313 1/01                     6,443,806
 Subrecipients' Financial Status Reports - all subgrants from inception through
 313 1/01                                                                                6,412,519
 Difference                                                                                 31,287

Further, we noted that total drawdowns for the grant were $6,463,320 as opposed to total costs
claimed by subrecipients of $6,412,519 - a difference of $50,801. The Commission reported
reimbursements and advances to the AmeriCorps subrecipients as costs rather than reporting the
costs actually claimed by the subrecipients. EED personnel did not provide a reconciliation of the
difference in costs per the Commission's FSRs and those costs reported by the subrecipients but
suggested that such differences are possibly the result of timing and would be eliminated by the end
of the grant. In the absence of a reconciliation of this difference, we have questioned this amount.

PDAT h d s of $35,000 were provided by the Commission to Rural CAP'S Alaska EPA ArneriCorps
Program in 1998. We noted that these costs were reported by Rural CAP as AmeriCorps
expenditures, but were unable to determine how they were reported by the Commission. It is
possible that these expenditures were reported as PDAT finds by the Commission and as
AmeriCorps h d s by Rural CAP, a situation that could result in an overstatement of costs claimed.
Pending resolution of this issue, we have questioned these costs.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."
Financial Management Provision 4.b. under Section C. requires that "the Grantee must maintain
adequate supporting documents for its expendituresand in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended by the subrecipient are reconciled to the total funds disbursed by the
Commission to the subrecipient. We also recommend the preparation of worksheets and
reconciliations to support any differences between drawdowns from the Corporation and the FSRs.

Commission's Response

The Commission agrees with the finding and recommendation to develop internal control procedures
to eliminate reporting errors. The Commission provided a PMS screen print as ofApril 2,2002 that
reflected a credit adjustment of $49,961.80 that reduced the difference to $691.

The Commission stated that the revised reconciliation noted under Finding No. 5 resolves the
questioned costs of $35,000 that the auditor considered could have been reported as PDAT funds,
even though those costs were identified as program expenditures by Rural CAP. The Commission
also stated that there is no evidence that this amount was drawn or expended as PDAT funds. The
grant agreement with Rural CAP indicates the $35,000 was an amendment to the AmeriCorps
program grant even though the funds were actually spent for training.

Auditor's Comment

We consider the $691 difference to be an acceptable timing difference and the credit adjustment to
be appropriate. We have, accordingly, revised our questioned costs to exclude the $3 1,287originally
questioned.

The reconciliation of the timing difference between the PDAT FSR and the PMS report has the effect
of ensuring that costs reported on the PDAT FSR reasonably agree with the cash drawn from PMS.
The reconciliation does not, however, establish whether the $35,000 of PDAT funds provided to
Rural CAP'S Alaska EPA ArneriCorps Program was reported on an FSR for the ArneriCorps
program or a PDAT FSR. Accordingly, our position with respect to the $35,000 remains unchanged.
Finding No. 7

Condition

Cumulative drawdowns by the Commission for its Administration grant exceeded costs reported on
the final FSR by $1 1,053.
 Source:                                                                          Amount
 Drawdowns per CNS                                                                   576,025
 Commission's Financial Status Reports through final of 6130101                      564,972
 Difference                                                                           1 1.053

EED personnel did not provide a reconciliation of the difference between drawdowns and the costs
per the Commission's FSRs. In the absence of such a reconciliation, we have questioned this
amount.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

Financial Management Provision 4.b. under Section C. requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended are reconciled to total funds received by the Commission from the
Corporation. Worksheets and reconciliations should be prepared to support any differences between
drawdowns by the Commission and the FSRs.

Commission's Response

The Commission agrees with the finding and recommendation to develop internal controls to
eliminate reporting errors. The Commission has provided evidence of adjustments to its PMS
account and filed an amended final FSR that bring both into agreement.

Auditor's Comment

We have revised our questioned costs to exclude the $1 1,053 originally questioned.
F i n d i n ~No. 8

Condition

Our review of travel costs claimed by Rural CAP disclosed two items charged that were outside the
subrecipient grant periods and one item without supporting documentation. Accordingly, we have
questioned $2,038 as follows:

    Per diem and miscellaneous costs of $942 incurred fiom June 25 through June 29,2001 were
    charged to the AmeriCorps Child Development subgrant. The final FSR through December 3 1,
    2000 was submitted to the state on January 3 1,2001.

     Airfare costs of $748 for travel fiom June 11 through June 15, 2001 were charged to the
     Amencorps EPA/Raven subgrant that covered the period fiom September 1, 1999 through the
     final FSR of March 3 1,2001.

     Supporting documentation was unavailable for travel costs of $348 charged to the ArneriCorps
     EPA/Raven subgrant for the period from January 1,1998 through March 3 1, 1999.

The items above appear to be the result of inadvertent misclassification of costs charged to the
subgrants and an error in the filing or retention of documentation.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

Financial Management Provision 4.b. under Section C. requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation

We recommend that subrecipient charges be applied to correct cost centers and grant periods and that
all documentation in support of claimed costs be retained for the required three-year retention period.
Commission's Res~onse

The $925 and the $17 questioned for grant #466 and the $748 questioned for grant #430 were not
actually reported as Grantee costs on the Grantee's FSRs. At year-end closing of the Grantee's
books, these charges were identified to be in the incorrect grant accounts after the final FSRs had
been submitted and were removed.

The Commission provided a memorandum describing the purpose and results of the trip and
other documents from Rural CAP that support the $348 in travel costs questioned in the audit
report.

Auditor's Comment

The Commission stated that the charges of $925, $17 and $748 were removed from the grant
accounts and provided copies of updated Rural CAP general ledgers to support this position.

The Commission submitted information and supporting documentation from Rural CAP that had
not been provided previously in support of the $348 travel costs questioned.

We have revised our questioned costs to exclude the $2,038 originally questioned in this finding.

Finding No. 9

Condition

Our review of SAGA'S member records disclosed the following missing documentation:

  Issue                           1998             1999             2000            2001
  High-School (H.S.)
- Diploma                        2 of 12                           1 of 10
  Parental Consent form                           1 of 16          1 of 10
  Program S tart/End Dates       4 of 12
  H.S. Dropout
  dateIAgreement to obtain
  H.S. equivalent                2 of 12                           1 of 10
  Position Descriptions          11 of12          15 of 16         4 of 10
  Drug Free Workplace            8 of 12
  Member Contracts               4 of 12
  Mid./End Evaluations           2 of 12          7 of 16          2 of 10         1 of 12
  Time worked directed
  toward Grant                                                     1 of 10                    A
Files of two members in 1998 and one in 2000 were missing the required high school completion
documentation, dropout date or agreement to obtain the high school equivalent. Without this
information we were unable to determine whether these individuals were eligible for the
Amencorps program and, as a result, have questioned the stipends paid to them as recorded in
the payroll register.

The cause of the missing documentation from the members' files appears to the result of the lack of
emphasis on the importance of properly maintaining the members' records. We noted improvement
in more recent audit periods (2000-2001).

The Amencorps Provisions establish policies and procedures for the subrecipients to follow with
regard to the members' records, eligibility and support are as follows:

 AmeriCorps Special                   1998           1999
 Provisions

 Section B                      1 7,8, 15 & 17 1 7'8, 15 & 17
This condition results in violation of the terms and condition of AmeriCorps Provisions and potential
funding misapplications. Members without high-school diplomas or written agreements to obtain
the equivalent or parental consent forms could result in ineligible members being enrolled.

Recommendation

We recommend that the Commission emphasize to its subrecipients the importance of maintaining
proper and complete member records and establish policies and procedures to monitor compliance
with AmeriCorps Provisions on member files.

Commission's Res~onse

The Commission and SAGA stated that the three participants whose costs were questioned were
two high school students enrolled in the Job Training Partnership Act (JTPA) summer program
in 1998 and in one in the Workforce Investment Act (WIA) program in 2000-2001 and were not
paid with AmeriCorps funds. A letter of explanation and items of documentation were submitted
to support this position.

Auditor's Comment

AmeriCorps rosters provided by SAGA for our review for the years 1998 and 2000 included the
three individuals whose costs were questioned in the audit report. SAGA maintains that the costs
associated with these individuals were paid by JTPA and WIA and submitted schedules in support
of this position. SAGA did not, however, submit similar schedules or other support of the stipend
costs claimed under the AmeriCorps program, nor was high school completion documentation
provided. It is not possible to verify actual costs or their allowability in the absence of such
information, and accordingly our position with respect to the questioned costs of $10,341 remains
unchanged.
Finding No. 10

Condition

Our review of Nine Star's member records disclosed the following missing documentation:

  Issue                                    1998                 1999                 2000
  Position Descri~tions                    1 of4                1 of4                1of4
I Orientation Checklist                    4 of4                3 of4                1 of4         1
The cause of the missing position descriptions from the members' files appears to be the result of an
inadvertent error. Nine Star generally did not include orientation checklists in the files until the year
2000.

The AmeriCorps Provisions, Section B., establish policies and procedures for the subrecipients to
follow with regard to the members' records, eligibility and support.

This condition results in violation of the terms and conditions of ArneriCorps Provisions.

Recommendation

We recommend that the Commission emphasize to its subrecipients the importance of maintaining
proper and complete member records and establish policies and procedures to monitor compliance
with Amencorps Provisions on member files.

Commission's Response

The Commission agrees with the nature of the recommendation and represents that it continues to
emphasize to Grantees the importance of maintaining complete member records. The Commission
provided a copy of a checklist contained in its policy manual for Program Directors regarding
required contents for member files and represented that this checklist is used by Commission staff in
site monitoring visits.

Auditor's Comment

The checklist comprehensively covers the documentation required to be in members' files. We are
unable to comment on whether the checklist has been implemented effectively.
                INTERNAL CONTROLS OVER FINANCIAL REPORTING

In planning and performing our audit of award costs as presented in Exhibits A through E for the
period October 1, 1997 to December 30,2001, we considered the Commission's internal controls
in order to determine our auditing procedures for the purpose of expressing our opinion on the
financial schedules and not to provide assurance on the internal controls over financial reporting.

The Commission's management is responsible for establishing and maintaining internal controls.
In fulfilling this responsibility, management estimates and judgments are required to assess the
expected benefits and related costs of internal control policies and procedures. The objective of
internal controls are to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss fiom unauthorized use or disposition, and that transactions are executed
in accordance with management's authorization and recorded properly to permit the preparation of
financial schedules in accordance with generally accepted accounting principles of the United States
of America. Because of inherent limitations in any intemal controls, errors or irregularities may
nevertheless occur and not be detected. Also, projection of any evaluation of the intemal controls
to future periods is subject to the risk that procedures may become inadequate because of changes
in conditions or that the effectiveness of the design and operation of policies and procedures may
deteriorate.

Our consideration of this matter would not necessarily disclose all matters of internal controls over
financial reporting that might be reportable conditions. Under standards issued by the American
Institute of Certified Public Accountants, reportable conditions are matters coming to our attention
relating to significant deficiencies in the design or operation of internal control that, in our
judgement, could adversely affect the Commission's ability to record, process, summarize, and
report financial data consistent with the assertions of management in the financial statements.
Material weaknesses are reportable conditions in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that errors or
 irregularities in amounts, which would be material in relation to the financial schedules being audited
or material to a perfomance measure or aggregation of related performance measures, may occur
 and not be detected within a timely period by employees in the normal course of performing their
 assigned functions.
We noted the following matters involving the internal controls that we consider to be reportable
conditions. Both of these conditions are also considered to be material weaknesses.

Findinp No. 11

Condition

Amounts drawn down, as reported by HHS, are not reconciled to amounts reflected in the
Commission's records. As noted in Finding No. 7, cumulative drawdowns exceeded total costs
claimed for the Commission's Administrative grant indicating that EED did not reconcile CNCS
hnding and costs incurred.

This condition appears to be the result of administrative oversight on the part of EED, the agency
responsible for the Commission's accounting records.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation

We recommend that the Commission develop and implement internal control procedures to ensure
that the total funds expended for each funding award are reconciled to the total finds received by
the Commission from the Corporation. Worksheets and reconciliations should be prepared to
support any differences between drawdowns by the Commission and the FSRs.

Commission's Response

The Commission agrees with the finding and recommendation and represents that a procedure has
been established to reconcile grant revenues with state expenditure reports prior to each draw down
request.

Auditor's Comment

Implementation of the revised procedures should correct this condition.
Finding No. 12

Condition

The Commission reported reimbursements and advances to AmeriCorps subrecipients as costs rather
than reporting the costs actually claimed by the subrecipients. The pre-Audit Survey also cited this
condition noting similarly that the Commission uses drawdown requests to compile FSRs submitted
to the Corporation. Consequently, Commission FSRs are not compiled based on expenditures
reported on the subgrantee FSRs submitted to the Corporation.

The Commission indicated in its response to the Pre-Audit Survey that FSRs are prepared on a cash
basis, based on actual expenditures, and that only actual disbursements made and cleared through
Alaska State Auditing System to the subgrantees are reported on the Commission FSRs. We agree
that reimbursements can be construed as expenditures, however, advances provided to operate the
ArneriCorps program are not costs until reported as such, since actual programmatic costs have yet
to be incurred and reported.

Financial Management Provision 4.a. under Section C., General Provisions for Program
Development and Training, Disability Placement and State Administrative Awards requires that "the
Grantee must maintain financial management systems that include standard accounting practices,
sufficient internal controls, a clear audit trail and written cost allocation procedures as necessary."

Financial Management Provision 4.b. under Section C. requires that "the Grantee must maintain
adequate supporting documents for its expenditures and in-kind contributions under this grant. Costs
must be shown in books or records and must be supported by a source document, such as a receipt,
travel voucher, invoice, bill, in-kind voucher, or similar document."

This condition results in a violation of the terms and conditions of the grant and potential funding
misapplications. Properly supported and accurate financial information is required for timely and
effective reporting and management decision-making.

Recommendation

We recommend that the Commission develop and implement an internal control procedure to ensure
that the total funds expended by subrecipients are reconciled to the total funds disbursed by the
Commission.
Commission's Res~onse

The Commission agrees with the finding and with the recommendation and represents that it has
established a procedure to reconcile total hnds expended by subrecipients to the total funds
disbursed by the Commission. The Commission notes that the practice of reporting advances to
subrecipients as expenditures on Commission FSRs was the practice used when the AmeriCorps
program was administered by another state department.

Auditor's Comment

Implementation of the revised procedures should correct this condition.

Findings Nos. 1 through 9 set forth in the Compliance section of the report are also considered
findings on internal control.
                           Follow-Up On Pre-Audit Survev Findings


Finding; No. 1

The Commission did not maintain signed conflict of interest forms as required. Because the
Commission could not provide all signed and dated conflict of interest statements, it was not
possible to determine whether the forms were properly completed by all Commission and grant
review panel members during the grantee selection process and whether the individual reviewer
lacked a conflict of interest.

Current Status

The Commission stated that there has been an on-going effort to maintain objectivity and impartiality
in the review and selection of grant applications. The Commission also stated a conflict of interest
statement is on file from each Commission member and that these forms will be obtained fiom grant
review panel members who are not Commission members. We consider this finding closed.

Finding; No. 2

The Commission was unable to locate some documentation to support grant decisions. Three items
were cited as missing during the pre-audit survey.

Current Status

The Commission acknowledged that its files were incomplete and was able to locate only one of the
three items missing during the pre-audit survey. There is no indication that the condition of the
records for prior years has improved. We consider this finding to remain open.

Finding No. 3

There was a lack of documentation to support the assessment of subgrantee applicants' financial
systems during the selection process. The Commission could not document that audit reports were
forwarded to the review panel. Application forms provided by the Commission did not address the
applicants' financial systems nor was information related to their financial systems requested fiom
the applicants.

Current Status

The Commission noted that there have been only three subgrantees almost from the Commission's
inception and that their financial systems are assessed outside of the selection process. The
Commission has not verified that this was done during the initial selection process. Audit reports
are now a required attachment to fhture grant applications and renewals. We consider this finding
closed.
Finding No. 4

There was a lack of evidence of FSR review, including matching recalculation. Review of the FSR's
disclosed various errors including two FSR's with incorrect carryforward amounts, three math errors,
two incorrect amounts on the "Total Federal Funds for that period" line and one FSR where the
amounts reported for recipient and federal outlays did not agree to the amount reported as total
outlays. Specific FSRs were not indicated in the finding. It could not be determined whether
Commission personnel compare FSRs to subgrantees' accounting systems or other supporting
documentation during site visits.

Current Status

The Commission has instituted and is using a procedure for FSR review. The Executive Director
now reviews the FSRs with the assistance of the Finance Manager. Discussion with subgrantees
disclosed that financial information review procedures have been incorporated into Commission site
visits. We consider this finding closed.

Finding No. 5

The pre-audit survey noted five instances in which subgrantees did not submit FSRs within the
required time period in accordance with Corporation guidelines. The timeliness of another FSR
could not be determined because it had been signed prior to the end of the period reported.

Current Status

The Commission suggested that reporting would improve with the implementation of the Web Based
Reporting System (WBRS) and that FSR submissions would be discussed during site visits. The late
submission of FSRs, as noted in the finding above, was an issue during the earlier portion of the
audit period. While implementation of WBRS, however, appears to have improved the timeliness
of subgrantee FSR submissions, our audit disclosed that this condition was present. Accordingly,
we consider this finding to remain open.

Finding. No. 6

The Commission uses drawdown requests to compile FSRs submitted to the Corporation.
Commission FSRs are, therefore, not compiled based on expenditures reported on the subgrantee
FSRs submitted to the Commission.

Current Status

The Commission has stated that FSRs are prepared on a cash basis, based on actual expenditures.
Only actual disbursements made and cleared through Alaska State Auditing System to the
subgrantees are reported on the Commission FSR.
With subgrantees on a reimbursement basis, there is validity to the Commission's position that
disbursements to subgrantees be considered expenditures. In the case of SAGA, however, advances
had been provided in order to operate the ArneriCorps program. These disbursements are not
expenditures until reported as such, since actual programmatic costs had yet to be incurred. As a
result, our review disclosed no change in the FSR preparation method by the Commission for
submission to the Corporation. We consider this finding to remain open.

Finding No. 7

The evaluating and monitoring system for subgrantees needs to be improved at the Commission.
Certain information and records documenting the work performed could not be located.

Current Status

The Commission maintained that there was comprehensive and ongoing monitoring by the prior
Executive Director. The current Executive Director indicated that additional communication and
site visits would be conducted. A program staff person has been added to the Commission to
increase contact with the subgrantees. We determined that procedures have been established and
communication with subgrantees has substantiated increased and comprehensive monitoring activity
by the Commission. We consider this finding closed.

This report is intended for the information and use of the Corporation's Office of Inspector General,
as well as the management of the Corporation for National and Community Service and the Alaska
State Community Service Commission and its subrecipients and the U.S. Congress. However, this
report is a matter of public record and its distribution is not limited.


                                                                    ctLa &                  @
                                                      Leonard G. Birnbaum and b       y    , LLP



Alexandria, Virginia
June 28,2002
                      Appendix A


Response of the Alaska State Community Service Commission
                      8TATE 0 AM8W
                              Alaska State Community Service Commission
                               Department of Education b Early Development

August 20,2002

Mr. Terry Bathen, Deputy Inspector General
Office of the Inspector General
1201 New York Avenue, NW
Washington, DC 20525

Dear Mr. Bathen:

The Alaska State Community Service Commission (Commission) and the State of Alaska
Department of Education & Early Development (EED) appreciate the opportunity to respond
to the Findings in the July 22,2002 preliminary audit report for the Commission.

Victoria Thomas, the Internal Auditor for the Department of Education and Early
Development coordinated the work in the preparation of the response, a function of her
position within the Department. We are most grateful for her assistance, particularly because
of our unique circumstance in Alaska in having some of our fiscal functions that take place in
Juneau and some in Anchorage. Victoria has helped to bridge the information gap that is
often a challenge and our response is more comprehensive as a result.

The members of the Commission reviewed the preliminary Audit Report and discussed it at
our meeting on August 7'" Our next business meeting will be on October 28Ih at which time
we will receive and review the final report.

Although this audit process was difficult and lengthy, we believe that there are valuable
lessons learned whenever an organization is evaluated and examined as we have been
through this process and the CNCS Standards Review.

We particularly appreciate your personal attendance at both the entrance and exit conference.
We also believe that it was valuable to have Mr. Leiper here in Anchorage for the exit
conference as well. Thank you for your assistance.

Sincerely,




                            619 E. Ship Creek Avenue, Suite 249, Anchorage, AK 99501
                                      PH: (907) 269-4659, FX: (907) 269-5666
                                            AmeriCorps@eed.state.ak.us
Alaska State Community Service Commission




      RESPONSE TO THE AUDIT OF CORPORATION FOR
       NATIONAL AND COMMUNITY SERVICE GRANTS
       AWARDED TO THE ALASKA STATE COMMUNITY
                 SERVICE COMMISSION
              OIG Audit Report Number 02-16




               August 16,2002
TONY KNOWLES, GOVERNOR


STATE OF ALASKA
Department of Education & Early Development
State of A luska Community S e wice Commission


Findina No. 1
The Commission did not track expenditures for the Administration and PDAT arants by
budaet line item.

The Commission agrees to the need for control over the budgets for the Administration
and PDAT grants. Although EED was not asked to format reports by budget
characteristics the department does maintain a strict awareness of program budgets and
available grant funds.

The expanded use of the WBRS system should aid in remedying the issue of budgetary
comparisons. It was agreed at the exit conference that information to the detail of line
item is more than the Corporation requires and meeting comparison levels of the five
main categories of expenditures will suffice. WBRS will be effective in providing this.


Findina No. 2

The Commission did not submit Financial Status Reports (FSRs) of AmeriCorps,
Administrative and PDAT grants on a timely basis.


The department agrees that timely reporting is important to CNS as well as it is to
Commission. Accordingly the department has strengthened its procedures to assure
that FSRs are complet&i-accuraiely and reporting deadlines will be met.


Findina No. 3

AmeriCorps sub-recipients did not submit FSRs on a timelv basis.

The Commission agrees and understands the importance of timely reporting and
believes that this is now well understood by all of the Alaska Commission's sub-
grantees. It is an item that will be stressed in the future as new grantees enter the state
program. Changes in the CNCS provisions no longer require these reports on a
quarterly basis. The State of Alaska Commission standards are more stringent and
should thus easily meet the CNCS requirements for timely reporting.
State of Alaska Community Service Commission
Page 2 of 5
August 21,2002

Findinq No. 4

EED was unable to provide su~portinqdocumentation for the Administration and PDAT
grants' non-~avrolltransactions prior to Januaw 1, 2000.

In an effort to streamline state government in 1999, the Alaska State Legislature
eliminated the State Department of Community & Regional Affairs (DCRA). DCRA was
the department in which the Alaska State Community Services Commission was
originally placed in the state framework. When the entire department of DCRA was
eliminated from state government, the Commission was transferred to the Alaska
Department of Labor where it remained for about 3 months. In October of 1999 the
Commission was transferred from Labor to the Department of Education & Early
Development (EED). Some files were not included in the archive effort that took place
during this transition period between three state departments, and EED was not able to
locate some of the documents requested by the auditors. €ED was able to provide all
the payroll items requested; documentation of eight transactions with underlying support
prior to October1999 were unavailable to the auditor.

The department would like to note that financial reporting from the Alaska State
Accounting System (AKSAS) for the entire periods of all of the Commission grants was
made available to the auditors along with inception to date reconciliations of grant
expenditures. The AKSAS reports provide a specific record of how and when
Commission funds were expended, and there is no reason to suggest that there was any
impropriety in these expenditures. The fact remains that the detail support was not
available for viewing by the auditors, but the financial reports from the state accounting
system provide significant evidence of all Commission expenditure transactions and
were supported in all other instances by invoice detail of legitimate expenditures which
suggests that could also apply to those items where the detail is lacking.


Findina No. 5

Cumulative PDAT costs reported on the FSR exceeded the amount recorded in the
general ledqer bv $8461 as of December 31.2001.

The Commission and the department agree with the finding and recommendation to
develop internal control procedures to eliminate reporting errors. Upon further review of
grant 95PDSAK001, two adjustments were necessary to the initial reconciliation.
Please see Exhibit R-5a for the $10,089 FY95 adjustment and the $18,888 FYOO
adjustment for Alaska Department of Labor PDAT expenditures. The revised total
expenditures for the PDAT grant as of December 31,2001 is $354,936, a difference of
$337 (Exhibit R-5b) greater then the amount reported on the December 31, 2001 FSR
(Exhibit R-5c). Extending the reconciliation to the most recent PMS report (Exhibit R-
5d) and the FSR for the January 1 to March 31,2002 period (Exhibit R-5e) the timing
difference noted by the auditor is further reduced to a difference of $89.

Additionally, this resolves the questioned cost of $35,000 which the auditor considered
could have been reported as PDAT funds by the Commission even though those costs
were identified as program expenditures by the grantee, Rural CAP. There is no
State of Alaska Community Service Commission
Page 3 of 5
August 21,2002
evidence of this amount being drawn or expended as PDAT funds. The $35,000 was
correctly reported by the Commission as an AmeriCorps grant expenditure. The grant
agreement between the Commission and the grantee, Rural CAP clearly indicates that
this is an amendment to the program grant, even though the funds were actually spent
for a training purpose, to provide funds so that Rural CAP Members could attend the
National Community Service Participant Training in Bethel, Alaska. Please see Exhibit
R-5f for the amended grant.


Findinq No. 6

Cumulative AmeriCor~scosts reported on the March 31,2001 FSR exceeded bv
$31.287 the amounts re~ortedand claimed bv the sub-qrantees for the same date: in
addition, total draws for the want were $6,463,320 a difference of $50.801 from the
$6,412.51 9 reported bv the sub-qrantees.

The Commission and the department agree with the finding and recommendation to
develop internal control procedures to eliminate reporting errors. When EED was initially
delegated responsibility for this grant, the department was unaware that Commission
quarterly reports needed to reflect the timing of costs that the sub grantees were
reporting through the WBRS System. This caused some timing issues for reporting
purposes; the department has since revised internal controls and reporting procedures to
reconcile AKSAS reports to sub-grantee reporting and to the Commission FSRs to more
accurately reflect the timing of program costs.

Exhibit R-6a is the inception-to-date PMS report as of August 6, 2002 for grant
94ASCAK002. The top of page 2 displays an adjusting entry processed 4-2-2002 in the
amount of -$49,961.80 as a negative draw to the PMS bringing the total draws for the
grant to $6,413,358.66. This inception-to-date PMS balance reduces to $691 the
difference between the costs reported by the sub-grantees and the revenue drawn by
the Commission for the total grant.


Findinq No. 7

Cumulative drawdowns bv the Commission for the Administration want exceeded costs
reported on the final FSR bv $11.053.

The Commission and the department agree with the finding and recommendation to
develop internal control procedures to eliminate reporting errors. EED has reconciled
the FSR Amended Final report as of August 2, 2002 (Exhibit R-7a) to the draws on the
PMS system (Exhibit R-7b) bringing the Commission draw down amount of $564,994
equal to the reported costs for the administration grant. The top of page 2 on the PMS
report displays adjusting entries processed March 28-2002 for -$I                   -
                                                                    306 and on April 1
2002 in the amount of -$9,724 as negative draws in the PMS. This inception-to-date
PMS balance reduces to $0 the difference between the costs reported and revenue
drawn by the Commission for the total grant. The Amended Final FSR adds an
additional $22 to the total grant expenditures previously reported.
State of Alaska Community Service Commission
Page 4 of 5
August 21,2002


Findina No. 8

Travel costs claimed by Rural CAP disclosed two items charaed that were outside the
sub-recipient want periods and one item without s u ~ ~ o r t i ndocumentation
                                                                  a            totaling
$2038.

The Commission and the sub-grantee, Rural CAP do not agree with the analysis that
costs were charged to the incorrect grant period or that travel costs were expended
without proper support. On the question of costs incurred and charged outside of the
grant period, neither of the identified costs, the $925 and the $17 questioned for grant
#466, nor the $748 questioned for grant #430 were actually reported as AmeriCorps
grant costs on the grantee FSRs. At year-end closing of the grantee books the charges
were identified to be in the incorrect grant accounts after the final FSRs for the identified
grants in question had been submitted and they were removed.

The questioned cost of $348 in unsupported travel is a bit more complex, but clearly
tracked and explained by the grantee as an appropriate expenditure. The Commission
and EED believe that the explanation provided by the grantee, Rural CAP more than
adequately explains the nature of this expenditure and agrees that it is an appropriate
AmeriCorps program expenditure. Please see Exhibit R-8a for the letter from Rural
CAP which specifically addresses these issues and the series of documents attached as
Exhibit R-8b 1 through 12.

In agreement with the nature of audit recommendation, the Commission continues to
emphasize to grantees the importance of maintaining complete supporting
documentation for program expenditures for the required 3 year retention period.


Findina No. 9

SAGA'S member records disclosed missinq documentation in the form of two hiqh school
di~lomasor the eauivalent.

The Commission and the sub-grantee, SAGA, do not agree that member files were
missing documentation which results in a violation of the terms and condition of
AmeriCorps Provisions and potential funding misapplication. The three individuals cited
were not paid from AmeriCorps grant funds. All three SAGA participants were high
school students enrolled in the summer program which was funded from the Job
Training Partnership Act (JTPA) in 1998 and Workforce Investment Act (WIA) in 2000-
2001. In 1998 the JTPA Financial Reports and Attachment A - Participant Listing from
5-1-98 through 8-21-98 (Exhibit R-9b) show total hours worked for Joshua Hawk as 412
and for Lindsey Knight as 376. The 2000 & 2001 summer Monthly Expenditure Reports
and Attachment A - Participant Listing for WIA (Exhibit R-9c) have 1124 total hours for
Michelle Boerem. The Commission believes the auditor was in error to cite the stipends
paid to these individuals as a misappropriation of AmeriCorps funds and a questioned
program cost. Please see Exhibit R-9a for the letter from SAGA which addresses this
issue and the supporting documentation attached as Exhibit R-9b and R-9c.
State of Alaska Community Service Commission
Page 5 of 5
August 21,2002

In agreement with the nature of the audit recommendation, the Commission continues to
emphasize to grantees the importance of maintaining complete member records. The
Commission's policy manual contains a check-list for Program Directors regarding
required contents for the member files (Exhibit R-9d). This check-list is also used by
Commission staff in site monitoring visits.


Findinq No. 10

Nine Star records disclosed missinq documentation in the form of Dosition descri~tions
and orientation checklists.

In agreement with the nature of the audit recommendation, the Commission continues to
emphasize to grantees the importance of maintaining complete member records. The
Commission's policy manual contains a check-list for Program Directors regarding
required contents for the member files. This check-list is also used by Commission staff
in site monitoring visits.


Findins No. 11

Amounts drawn down, as re~ortedby HHS, are not reconciled to amounts reflected in
the Commission's records.

The Commission agrees with the finding and with the recommendation. A procedure
has been established to reconcile grant revenues to AKSAS expenditure reports prior to
each draw down request and then verify the revenue posting.


Findinq No. 12

The Commission re~ortedreimbursements and advances to AmeriCor~ssub-recipients
as costs rather than re~ortinathe costs actually claimed by the sub-recipients.

The Commission agrees with the finding and with the recommendation and has
established a procedure to reconcile total funds expended by the sub grantees to the
total expenditures disbursed by the Commission. On the question of advances, this was
a situation that began in another state department some time ago and was eliminated
after the AmeriCorps program moved to EED. The Commission no longer utilizes this
practice.


cc: Shirley Holloway, Commissioner EED
    Mike Kenefick, CNCS Program Officer
    Yvonne Chase, Deputy Commissioner EED
    Karen Rehfeld, Director ESS
    Les Leiper, Birnbaum and Co.
                         Appendix B


Response of the Corporation for National and Community Service
                                                           CORPORATION

                                                           FOR N A T I O N A L
                                                          fl S E R V I C E




     To:       Terry Bathen, Acting Inspector General
                                                                                /,   1, /I ,
                                                                               (&/r.',i       0-
     Thru: William Anderson, Deputy- Chief Financial

     From: Peg Rosenbeny, Director of Grants
           Mike Kenefick, Acting Director of
                                                                                \         /               1
                                                                                                         /
     Subj : Response to Draft OIG Audit Report 02-16, ~ u d iof
                                                              t the Corporuton's Grants to
            the Alaska State Community Service Commission

     Date: August 22,2002


     We have reviewed the draft audit report of the grants to the Alaska Commission. Due to
     the limited timeframe for response, we have not analyzed documentation provided by the
     Alaska Commission supporting the questioned costs nor reviewed the audit work papers.
     We will respond to all findings and recommendations when the audit is issued and we
     have reviewed the findings in detail.

     Our preliminary review indicates that almost $85,000 of the $180,657 of the questioned
     costs resulted because supporting documentation from state agencies responsible for
     financial accounting for the commission were unavailable at the time of the audit. As
     noted in the audit report, the state government transferred responsibilities for commission
     financial management three times over the course of the grant. The department
     responsible for financial accounting for most of the period of the grant was completely
     disbanded. The commission staff is working to secure other documentation and is
     providing the commission financial records from the state accounting system to the
     Corporation. In addition, $35,000 of the questioned costs may be a misclassification of
     funds from one commission grant to another.




NATIONAL SERVICE: GETTING THINGS DONE
AmrriCorps   Learn and P n v Amcrica   . ?r'otional Scnior Scnicc Corps   Q   1201 New York Avenue, N.W Washington. D.C.20525
                                                                              telephone:202406-5000. website: www.nationnlsavie.org
